HHS/OIG, Audit - "Review of Excessive Payments for Outpatient and
Inpatient Services Processed by Blue Cross and Blue Shield of Georgia,"
(A-04-07-07021)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Excessive Payments
for Outpatient and Inpatient Services Processed by Blue Cross and Blue Shield of
Georgia," (A-04-07-07021)
June 27, 2008
Complete
Text of Report is available in PDF format (378 kb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Of the 94 high-dollar payments that Blue Cross and Blue
Shield of Georgia, Inc. (BCBSG) made to Medicare Part A providers in calendar
years 2004 and 2005, 12 totaling $264,000 were inappropriate.  Eight
overpayments totaling $209,000 had been refunded before the start of our
fieldwork and four overpayments totaling $54,000 remained outstanding.  BCBSG is
a fiscal intermediary serving Medicare providers in Georgia.  It had edits in
place for high-dollar charges during our audit period, which contributed to the
high number of appropriate payments it processed.  However, BCBSG made some
inappropriate payments because neither its system nor the common working
file had sufficient edits in place during calendar years 2004 or 2005 to detect
billing errors related to the Healthcare Common Procedure Coding System codes
and units of service.
We recommended that BCBSG
recover the $54,000 in identified overpayments.  BCBSG agreed with
our findings.  BCBSG stated it had recovered $13,000 of the identified
overpayments and was in the process of recovering the remaining $42,000.